                SEMIANNUAL
                REPORT

                April 1, 2011 –
                September 30, 2011




December 2011                  OIG-12-1
                                               United States Government Accountability Office


Memorandum
Date:        December 15, 2011

To:          Comptroller General Gene L. Dodaro

From:        Inspector General Frances Garcia

Subject:     Semiannual Report—April 1, 2011, through September 30, 2011

In accordance with Section 5 of the Government Accountability Office Act of 20081
(GAO Act), I am pleased to present my semiannual report for the 6-month period
ending September 30, 2011, for your comments and its transmission to the
Congress.

We’ve made significant progress during this reporting period in our efforts to
complete our transition to a statutory Office of Inspector General (OIG). For
example, we (1) issued GAO Order 0130.1.23, Office of the Inspector General,
which incorporates our new statutory authorities in describing the organization,
mission, authorities, and responsibilities of our office; (2) updated our policies and
procedures manual for audits and nonaudit services; and (3) standardized our
engagement processes, procedures, and documentation requirements to help
ensure full compliance with government auditing standards and other applicable
professional standards. We also continued our efforts to strengthen our quality
control system by updating our investigation policies and procedures. We recognize
that other changes to our quality assurance framework may be needed as we
complete our transition to the role of a statutory OIG. As a result, we do not
anticipate participating in a peer review until we have completed this transition and
have conducted and fully addressed any recommendations resulting from at least
two additional internal inspections.

In addition, we continued to participate in the activities of the broader inspector
general community, including the Council of the Inspectors General on Integrity and
Efficiency and the quarterly meetings of Legislative Branch Inspectors General.

Audits and Inspections
During this reporting period, we completed our planning survey to identify potential
risks in GAO’s procurement activities and areas for future work. Following the
survey, we initiated an audit of Contracting Officer Representative (COR) training.
Two other engagements were also initiated during this reporting period: (1) an audit
of GAO’s use of recruiting, relocation, and retention incentives, and (2) our

1
Pub. L. No. 110-323, 122 Stat. 3539 (Sept. 22, 2008).


                                                                 OIG-12-1 Semiannual Report
independent evaluation of the effectiveness of GAO’s information security program
and practices for fiscal year 2011 (as prescribed by the Federal Information Security
Management Act of 2002, with which GAO voluntarily complies).

We also responded to a congressional inquiry to provide (1) updated information
about our open and unimplemented recommendations and (2) the number of
recommendations the OIG deems accepted and implemented by GAO since April
15, 2010. We provided these responses only to the requester and do not anticipate
their public release unless made public by the requester.

Investigations and Hotline Activities
Regarding our efforts to identify potential fraud, waste, and abuse, the OIG’s hotline
is our primary source of complaints. The OIG receives hotline complaints through a
variety of sources, such as through its toll-free hotline number and e-mail. As shown
in table 1, we had a total of 164 complaints, 11 of which were open at the start of this
6-month reporting period and 153 were new complaints received during the period.

Table 1: Summary of OIG Hotline and Investigative Activity, April 1, 2011, through September 30, 2011

                                              Complaints
                                                            Referred to
                                              Closed,       other GAO
Open at                                   insufficient         units or
start of                     Referred to information/             other       Closed Open at end
period          Received      FraudNet       no basis         agencies investigations  of period
11                    153              79             64              10                7               4

Source: GAO OIG.

The 11 open cases from the prior semiannual reporting period covered a wide range
of subjects, such as issues related to telework, transit benefits, access to GAO ‘s
computer network, management of a computer data center, a former employee
volunteering to work, and the loss of GAO records management functions. Of these
11 cases, we closed 7—3 because of no basis for further action and 4 after
conducting investigations. As a result of our investigations, we made
recommendations to improve GAO’s monitoring of the telework program and to
strengthen internal controls over transit benefits, and GAO has initiated corrective
actions.

During the current reporting period, we received 153 new complaints. Seventy-nine
of the 153 complaints concerned matters related to other federal agencies and were
referred to GAO’s FraudNet—a governmentwide hotline operated by GAO staff that
receives complaints of fraud, waste, and abuse of federal funds. Of the remaining 74
complaints received during the reporting period, we

        closed 3 complaints after we conducted investigations. We assisted another
         OIG in reviewing transit benefits that were improperly paid to a GAO



Page 2                                                                  OIG-12-1 Semiannual Report
         employee after he left the federal agency. The other closed investigations
         included issues relating to a GAO employee’s prior employment and a
         contractor employee making unauthorized international phone calls. The case
         involving the unauthorized phone calls led to the recovery of $11,266 in funds
         for phone calls ($3,549) and lost labor time ($7,717). In addition, GAO
         strengthened controls to prevent unauthorized long-distance phone calls.
        closed an additional 61 complaints when we determined there was no basis
         for additional action.
        referred 8 complaints—7 to other GAO units and 1 to another agency—for
         action that involved such issues as travel card misuse, security of GAO’s
         electronic financial disclosure process, excessive requests for top secret
         clearances, and abuse of GAO’s room booking system.

We are continuing efforts on the remaining 2 open complaints.

Agency Actions on Recommendations Made in Prior OIG Reports
GAO took action on recommendations made in six previous OIG reports. First, in
response to an IG recommendation that GAO consider the adoption of suspension
and debarment procedures, GAO took the following actions. On September 30,
2011, GAO published in the Federal Register a notice of a proposed policy
statement regarding new suspension and debarment procedures. These procedures
will be adopted as part of GAO's procurement rules and will closely track the
procedures established in governmentwide procurement regulations, the Federal
Acquisition Regulation. The period for comments by interested parties closed on
November 14, 2011.

Second, in response to recommendations to help ensure that the agency’s
information security program is consistent with the Federal Information Security
Management Act and other federal requirements and guidance, GAO took the
following actions, among others:

        changed its annual systems inventory process to (1) document the chief
         information officer’s approval of inventory changes and (2) identify interfaces
         between GAO systems and those operated for GAO by other agencies and
         contractors;
        obtained additional assurances that contractor-operated systems meet
         federal information security requirements; and
        established a capability to determine the extent to which security controls for
         GAO notebook computers and workstations are configured in accordance
         with federal requirements.

Third, in response to recommendations intended to improve the effectiveness of
GAO’s policies and procedures in preventing and detecting travel charge card
misuse and delinquencies, GAO completed all actions. For example, GAO



Page 3                                                        OIG-12-1 Semiannual Report
implemented procedures to limit credit card issuance and to deactivate individual
travel cards for users who travel less than twice a year. GAO also implemented
policies and procedures for reviewing travel card spending limits and automated
teller machine advances and making recommendations to management regarding
the appropriateness of the spending and advance limits based on data trends.
Further, GAO took actions to use OMB Circular A-123, Appendix B, Improving the
Management of Government Charge Card Programs, dated January15, 2009, as a
guide in its annual assessment of the effectiveness of internal controls over its travel
card program.

Fourth, in response to recommendations intended to provide oversight of and
controls over GAO’s contractor parking policies and practices, GAO completed all
remaining actions.

Fifth, in response to our recommendation that GAO re-examine its management
challenges to determine whether (1) significant actions had been taken in the areas
of physical security, information security, or human capital to justify removal of any
of these management challenges and (2) other risks have emerged that may also
warrant designation as GAO management challenges, GAO took further action.
Following a series of meetings involving GAO’s Managing Directors, the Comptroller
General recently announced his intention to introduce a new Management
Challenge for fiscal year 2012 focusing on the efficiency of GAO operations. This
initiative will involve examining opportunities to streamline and standardize agency
business processes and will include an “end-to-end” review of GAO’s engagement
management process.

Finally, in response to our recommendation that GAO consider the desirability and
feasibility of expanding its oversight of Tiny Findings Inc. in a manner similar to the
oversight provided by the General Services Administration (GSA) for child-care
facilities in other federal office buildings, GAO took the following actions. GAO
agreed to convene a team of Tiny Findings officials and GAO officials to review
GSA's guidance and assess the desirability of expanding GAO's oversight role. A
plan of action is to be completed by December 31, 2011.

I provided GAO with a draft of this report for review and comment. The agency
provided technical comments that we incorporated, as appropriate.

Finally, I want to thank GAO’s Executive Committee, managers, and staff for their
cooperation during our reviews.


cc: Patricia A. Dalton, Chief Operating Officer, GAO
    David M. Fisher, Chief Administrative Officer/Chief Financial Officer, GAO
    Lynn H. Gibson, General Counsel, GAO
    GAO’s Audit Advisory Committee

(999810)



Page 4                                                       OIG-12-1 Semiannual Report
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                         Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                         Online at: https://OIG.alertline.com.


                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548


                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.




                             Please Print on Recycled Paper
